No.
re iene seein cms

IN THE SUPREME COURT OF THE UNITED STATES

ELISEO CARRILLO, III

Petitioner
V.
UNITED STATES OF AMERICA,
Respondent

Te

MOTION TO PROCEED IN FORMA PAUPERIS
OT

Pursuant to Title 18, United States Code, Section 3006A(d)(7) and Rule 39 of this Court,
Petitioner, ELISEO CARRILLO, III asks leave to file the Attached Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit without prepayment of fees or costs
and to proceed in forma pauperis.

Petitioner was represented by counsel appointed pursuant to Title 18, United States Code,
Section 3006(a) in the United States District Court for the Western District of Texas and on
appeal to the United States Court of Appeals for the Fifth Circuit.

Respectfully submitted,
Steve Hershberger, Attorney at Law
Texas State Bar # 09543950

600 No. Marienfeld St., Ste 1035
432-570-4014
  

Attorney for Petitioner

State of Texas )
County of Midland )
DEPOSITOR, being first duly sworn, deposes and says under oath:

That on September 01, 2021, the Petitioner for Writ of Certiorari, the in the above-entitled
case, was deposited in a United States Post Office mail box located in Midland, Midland County,
Texas, with first class postage prepaid, properly addressed to the Clerk of the Supreme Court of
the United States and within the time allowed for filing said Petition for Writ of Certiorari :

That an additional copy of the Petition and Motion to Proceed In Forma Pauperis were served
on Counsel for Respondent:

Solicitor General of the United States, Department of Justice
950 Pennsylvania Ave., Northwest
Washington, D.C. 20530

Dated at Midland, Midland County, Texas, this 1st, day of September, 2021.

 
 

Subscribed and Sworn to before me
his Ist day of September, 2021.

     
  
 

JE RMAPVAC®
ptary Public, in and for the State of Texas

Respectfully submitted,

| Steve Hershberger, Attorney at Law
FY PUe canna Mandonado , 600 No. Marienfeld St., Ste. 1035
Sk. 2 My Commission Expires Midland, TX 79701

- 05/18/20

Mie IO No 126275751 | 432-570-4014

 

Attorney for Petitioner
